<html>
<title> - MARKUP OF H.R. 527, REGULATORY FLEXIBILITY IMPROVEMENTS ACT OF 2011, AND H.R. 585, SMALL BUSINESS SIZE STANDARD FLEXIBILITY ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 MARKUP OF H.R. 527, REGULATORY FLEXIBILITY IMPROVEMENTS ACT OF 2011, 
   AND H.R. 585, SMALL BUSINESS SIZE STANDARD FLEXIBILITY ACT OF 2011

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 13, 2011

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-027
                Available via GPO Website: www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
77-059                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
                     ROBERT T. SCHILLING, Illinois
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                        JANICE HAHN, California
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                     Barry Pineles, General Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                                Appendix

Additional Materials for the Record:
    Legislation..................................................    27
    Business Letter on H.R. 527, the Regulatory Flexibility 
      Improvements Act of 2011...................................    35
    Letter from National Restaurant Association and National 
      Retail Federation..........................................    49


 MARKUP OF H.R. 527, REGULATORY FLEXIBILITY IMPROVEMENTS ACT OF 2011; 
   AND H.R. 585, SMALL BUSINESS SIZE STANDARD FLEXIBILITY ACT OF 2011

                              ----------                              --
--------


                        WEDNESDAY, JULY 13, 2011

                  House of Representatives,
                       Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:02 p.m., in room 
2360, Rayburn House Office Building, Hon. Sam Graves (Chairman 
of the Committee) presiding.
    Present: Representatives Graves, Bartlett, Chabot, King, 
Coffman, Mulvaney, Tipton, Landry, Herrera Beutler, West, 
Ellmers, Walsh, Barletta, Hanna, Velazquez, Schrader, Critz, 
Altmire, Clarke, Chu, Cicilline, Peters, Owens and Keating.
    Chairman Graves. Good afternoon. We are going to bring the 
Committee meeting to order.
    During the past 2 years, Federal agencies have dramatically 
expanded their regulatory reach. Those regulations imposed 
substantial costs on small businesses. So the scarce financial 
resources which could be used to hire employees must be 
diverted to regulatory compliance.
    In response to this ever-expanding burden, President Obama 
on January 18th ordered the agencies that had been imposing 
these burdens to consider the impact on small businesses. He 
became the third straight President ordering Federal agencies 
to examine the consequences of their rules on small businesses, 
something that agencies have had to do for the past 30 years 
under the Regulatory Flexibility Act, or the RFA.
    In addition to the efforts of three Presidents, 
congressional committees in both Houses and under Republican 
and Democrat leadership have held hearings about agency failure 
to comply. And finally, Federal courts have enjoined 
enforcement of rules until agencies prepared analyses required 
by the RFA.
    Despite the concerted oversight efforts, Federal 
bureaucrats continue to ignore the RFA. It is incomprehensible 
to me that agencies remain either unable or unwilling to comply 
with the RFA. The legislation being considered at this markup 
was written with the express purpose of finally forcing 
agencies to live up to their responsibilities and really 
scrutinize the impact of their actions on small businesses.
    Some people may ask why there is so much concern about 
compliance with the RFA. The answer is simple. Ninety-nine 
percent of the businesses regulated by the Federal Government 
have less than 500 employees. If you are going to regulate 
businesses, it seems utterly logical that the Federal agencies 
actually know what the consequences will be for almost all of 
the businesses that have to comply with their rules.
    The bills being considered at this markup are H.R. 527 and 
H.R. 585, simply have procedures and requirements to ensure 
Federal agencies understand the costs they are imposing on the 
99 percent of the businesses that they regulate.
    Chairman Graves. With that, I will now recognize Ranking 
Member Velazquez for her opening statement.
    Ms. Velazquez. Thank you, Mr. Chairman.
    No task before this Committee, indeed for all of Congress, 
is more important than helping small businesses create new 
jobs. With recent surveys suggesting that almost two-thirds of 
small firms are hesitant to hire more workers, all options 
should be on the table as we consider ways to foster small 
business job growth.
    The two bills before the Committee today are certainly 
focused on issues critical to entrepreneurs. Ensuring small 
companies are not needlessly burdened by regulation is 
important to helping small firms expand. Small enterprises with 
fewer than 20 employees are disproportionately affected by 
regulations, paying 36 percent more in regulatory costs than 
their larger counterparts. Ensuring Federal agencies take 
effects like this into account when implementing new rules is 
vital for our economy's long-term health.
    On a similar note, small business size standards are also a 
critical matter, determining which firms qualify for a wide 
range of technical assistance and counseling, to say nothing of 
billions of dollars in Federal procurement actions that are set 
aside for small companies each year.
    While I agree these are important topics that we must 
address, during our previous hearings the Committee heard 
numerous misgivings about the two bills before us. As just one 
example, a witness invited by the majority testified that the 
SBA's Office of Advocacy does not have the resources or 
expertise to take responsibility for setting size standards. 
Other concerns center on whether the legislation expands the 
Regulatory Flexibility Act too broadly, making the system 
inefficient.
    Unfortunately, matters like these have gone completely 
unaddressed in the legislation before the Committee today. If 
we are to enact legislation that achieves the Committee's 
goals, then more efforts should be made to correct the 
weaknesses in these two bills.
    I am also concerned procedurally with issues that will 
cause problems going forward. H.R. 527, the regulatory bill we 
are marking up, is different from the measure recently approved 
by the House Judiciary Committee. How the legislative product 
coming from this Committee will be reconciled with the 
Judiciary Committee's remains an open question. It will be 
particularly disconcerting if Members' amendments prepared for 
today's markup are ultimately discarded when a final package 
moves to the Rules Committee and then to the floor.
    Mr. Chairman, Members on both sides of the aisle recognize 
the need to reduce small business regulatory burdens and reform 
the SBA size standard system; however, I remain concerned that 
the legislation before us today does not reflect the best work 
of the Committee. If we are to truly support America's small 
businesses, we must develop legislation that makes not just for 
good sound bites, but also for effective policy.
    I thank the chairman for yielding.
    Chairman Graves. Thank you, Ranking Member Velazquez.
    Are there any other Members that wish to be recognized for 
the purpose of making an opening statement? If not, we will 
move forward.
    The way I am going to do this, I want to make sure 
everybody has a chance to offer their amendment. I know we have 
a couple of conflicts, mainly Education and Workforce. And I 
think, Mr. Schrader, you have a conflict, too, possibly with 
Natural Resources' votes that are coming up.
    What we are going to do is we will offer the amendments. We 
will go through 527 first, which is where most of the 
amendments are. If there are any recorded votes, then we will 
roll those, because I don't want to hang up anybody on that 
either. So we will try to accommodate everybody on this. And 
then the second bill I don't think there is too much 
controversy.
    So we will move right on into our first item on our agenda, 
which is H.R. 527, the Regulatory Flexibility Improvement Act 
of 2011. The bill strengthens the RFA by closing loopholes that 
agencies have used to avoid compliance. Of the major changes 
made in the bill are mandating analysis of indirect effects, 
something that is already required in environmental impact 
statements; limiting the ability of the Internal Revenue 
Service to avoid compliance with the RFA; requiring more 
detailed assessments, thereby providing an enhanced review of 
agency compliance and challenges to agency regulations; and 
empowering the Office of Advocacy to write governmentwide 
regulations for agencies to follow in implementing the RFA.
    This last requirement is by far the most significant in the 
bill. And when a dispute occurs over the interpretation of the 
RFA between the Office of Advocacy and the agency, of course we 
will defer to the Office of Advocacy's interpretation of the 
RFA.
    The changes made in this legislation will, in the words of 
President George W. Bush, care that the law is on the books. 
Despite the increased analysis required under H.R. 527, nothing 
in the legislation will prevent an agency from issuing a rule 
in the manner that it wants.
    I now recognize Ranking Member Velazquez for any remarks 
she may have.
    Ms. Velazquez. Thank you, Mr. Chairman.
    As we all know, recent jobs data confirmed that economic 
recovery is turning out to be a roller coaster ride rather than 
a steady climb. In April, 217,000 new jobs were created. Well, 
this changed dramatically while only 18,000 jobs were added 
last month.
    In order to smooth out this growth, we need entrepreneurs 
to participate in the economy more than ever. That means giving 
them access to capital and the ability to compete for Federal 
Government contracts. It also means allowing them to start up 
and grow stronger, but without the massive costs of unnecessary 
regulations.
    Unfortunately, it is these very small businesses that bear 
the largest burden of Federal regulation. As of 2008, these 
entrepreneurs faced an annual regulatory cost of $10,500. To 
address this very real problem, the Regulatory Flexibility Act 
was enacted in 1980 to give small businesses a louder voice in 
the regulatory process. It has been successful as regulatory 
costs were reduced by $15 billion in 2010.
    Even though RFA has improved the regulatory environment for 
small firms, it could do better. The legislation before us 
attempts to do so and on many fronts does this well. But in 
other areas I have major concerns that it overreaches and 
saddles SBA's Office of Advocacy with responsibilities that 
they cannot and do not want to handle.
    There are areas where I believe that there is broad 
agreement to improve the RFA. This includes making agency 
analysis more detailed so that agencies cannot ignore RFA and 
simply certify that a rule has no significant economic impact 
on small businesses. Addressing this matter will ensure that 
agencies are required to provide a more factual basis for such 
certifications, rather than just a sentence which dismisses the 
concerns of small firms.
    It is also important to give real teeth to section 610, 
which requires the agency to review outdated regulations that 
remain on the books, yet which continue costing small 
businesses money. While the RFA requires agencies to 
periodically review its system rules, these requirements are 
ambiguous, and agencies often do not apply them consistently. 
As a result, these reviews have been much less effective than 
they could be.
    However, several of the proposed changes that we are 
discussing today are sweeping in nature and will give immense 
power to the Office of Advocacy, all at the expense of 
taxpayers. While Advocacy's role is critical to small 
businesses--it has a body of 9 million and 46 employees--it is 
already taxed in meeting its current role, and expanding its 
powers to include the offering of regulations and convene a 
panel governmentwide is well beyond its capacity.
    Members on this Committee are aware of the fiscal 
constraints facing the U.S. Government. Now is not the time to 
make statutory leaps when smaller steps might be appropriate. 
We must be mindful of the taxpayers who are footing the bill.
    Since being signed into law more than 30 years ago, the 
Regulatory Flexibility Act has played an essential part in 
reducing regulatory burden. As we move forward on this 
legislation, I believe that there is a better way to accomplish 
this goal, but without simply shifting the costs from small 
businesses to taxpayers. By doing so we can best ensure that 
entrepreneurs will be the catalyst for job creation that our 
economy needs. And with that I yield back, Mr. Chairman.
    Chairman Graves. Thank you, Ranking Member Velazquez.
    Are there any other Members that wish to be recognized for 
a statement on H.R. 527?
    Seeing none, the Committee now moves to consideration of 
H.R. 527. The clerk will report the title of the bill.
    The Clerk. H.R. 527, to amend chapter 6 of title 5, United 
States Code, commonly known as the Regulatory Flexibility Act.
    Chairman Graves. I would ask unanimous consent that H.R. 
527 be considered as read and open for amendment in its 
entirety.
    And with that, we will just go through the amendments as 
they came in, the first two being Mr. Owens'.
    Do you want to bring up amendment number 1? You are 
recognized for that purpose.
    Mr. Owens. Thank you very much, Mr. Chairman.
    I offer this amendment to provide that regulations or the 
plan be written in such a way that we utilize plain language. 
That is something which greatly impacts small businesses as 
they try and get through, if you will, governmentese or 
legalese, and we look to make these not necessarily more 
simple, but more clear so that people can interpret and 
understand what they are being asked to do.
    And we also are requiring in this amendment that the agency 
shall solicit input from affected small entities or 
associations of affected small entities so that, in fact, there 
is a compelling reason for the agency to go forward and reach 
out to small businesses.
    As we know, small businesses are the job creators in our 
communities, and particularly in a rural district like mine, 
small business entities really are the lifeblood of what 
happens throughout our communities. So I would urge adoption of 
this amendment.
    I yield back.
    Chairman Graves. Is there any further discussion or anyone 
that wishes to be heard on the gentleman's amendment?
    Seeing none, the amendment by the gentleman from New York 
makes abundant sense, in my opinion, and I wish to accept it. 
All those in favor, say aye.
    All opposed.
    It is the opinion of the chair that the ayes have it. The 
ayes do have it.
    Mr. Owens, your second amendment.
    Mr. Owens. Thank you, Mr. Chairman.
    The second amendment really addresses the same issue in 
that it requires or lays out how an agency will go through the 
outreach program so that, in fact, small businesses do have the 
opportunity to have input into the plans as they are developed 
by the agency. And again, we rely, in my district and in many 
districts throughout the United States, on small businesses for 
not only the development of jobs, but really the social fabric 
of the community. And again, I would urge adoption of this 
amendment.
    Chairman Graves. Does any other Member wish to be heard on 
the gentleman's amendment?
    Seeing none, I do support the gentleman's amendment. I 
think he did a good job of describing it. So with that, the 
question is on amendment number 2 by Mr. Owens. All those in 
favor, say aye.
    All opposed, no.
    The ayes appear to have it. In the opinion of the chair, 
the ayes do have it. The amendment is adopted.
    We will next move to Mr. Schrader. Yours came in third. I 
think you have one amendment.
    Mr. Schrader. Yes, sir. Thank you, Mr. Chairman.
    This is a fairly simple, commonsense amendment that 
hopefully promotes transparency and a more open government for 
America's small businesses. At home I think we all hear that 
small business owners are not even aware of some of these 
Federal regulations that come out in rulemakings, and if they 
do come out, they don't understand them. So my amendment 
highlights the obligation of the Federal Registrar to 
biannually transmit a list of the rulemakings that have an 
economic impact on small entities. This amendment would require 
every agency to make this information prominently available in 
plain language on their Website on the same day it is sent to 
the Federal Registrar and keep it regularly updated.
    It would also make the agencies identify the businesses and 
business sectors that the rules actually affect so small 
businesses can better understand which regulations actually 
might impact them.
    I think this amendment is in line with the goals of our 
Committee to simplify regulations while making government more 
open and visible and more transparent. I urge the Committee to 
pass the amendment, please.
    I yield back.
    Chairman Graves. Does any other Member wish to be heard on 
Mr. Schrader's amendment?
    Seeing none, I support the amendment, and I am willing to 
accept it. With that, the question is on the amendment by Mr. 
Schrader, which is amendment number 3. All those in favor, say 
aye.
    All those opposed, no.
    The ayes appear to have it. The ayes do have it. The 
amendment is adopted.
    Next we will move to Ranking Member Velazquez for your 
amendments.
    Ms. Velazquez. Amendment number 6.
    Chairman Graves. It is amendment number 6.
    Ms. Velazquez. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Graves. The ranking member is recognized. Can you 
read the amendment?
    The Clerk. Amendment to H.R. 527, page 17, line 12, insert 
after ``entities.'' the following.
    Chairman Graves. I would ask unanimous consent----
    Ms. Velazquez. I ask unanimous consent that the amendment 
be considered as read.
    Chairman Graves. Seeing no objections, so ordered.
    Is that the right one?
    Ms. Velazquez. Mr. Chairman, with Americans tightening 
their belts, we must be especially careful how taxpayers' 
dollars are spent. In this budget-conscious time, it is 
critical that we have a close accounting for every government 
expenditure. Fiscal responsibility starts with transparency. We 
all want to make the regulatory appeal process smoother and 
fairer for small businesses; however, entrepreneurs will also 
want to know what the cost of those changes will be. After all, 
small businesses that are struggling to rebound from this 
recession don't have the luxury of spending money they do not 
have.
    My amendment will bring additional transparency to the 
process so that we can easily track costs incurred by the new 
panel system. If we are going to fundamentally alter the 
regulatory review system, it seems like common sense to keep 
close tabs on the financial ramifications of these changes. In 
addition, the public and Congress could see how those costs are 
broken out, providing further protection against any wasteful 
behavior. Not only will this prevent abuse, but it will help 
ensure that taxpayers are getting bang for their buck.
    Mr. Chairman, all of us want the regulatory review process 
to work better, but we should also have a clear handle on 
expenses that come from changing the system. American taxpayers 
are carefully monitoring their own budgets and tracking every 
dollar they spend. Most small businesses are doing the same. 
This amendment simply ensures that this bill adheres to the 
same standard, and I urge my colleagues to support this 
amendment.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Seeing none, the amendment is going to require that chief 
counsel prepare a report on the costs associated with 
conducting the panels to obtain small entity input prior to 
publication of the proposed rules in the Federal Register, 
which I would raise two objections. First, the cost and time to 
prepare the report actually detract from the ability of the 
Office of Advocacy to conduct panels. And second, agencies 
regularly obtain prepublication input as part of the rulemaking 
process, and the cost of such meetings isn't tracked. As a 
result, I cannot support the amendment.
    Ms. Velazquez. Under the legislation--Mr. Chairman, if you 
would yield----
    Chairman Graves. I will yield.
    Ms. Velazquez [continuing]. The agency has to provide a 
report. And what we are only asking is to add the cost of this 
panel. I think that this Committee has been given no cost 
information about all these authorities, and this amendment 
will accomplish that. For a party that talks about controlling 
costs, it is ironic that you don't even know how much this is 
going to cost to taxpayers. This is about accountability and 
transparency.
    Chairman Graves. Yield back?
    Ms. Velazquez. I yield back.
    Chairman Graves. With that, the question is on the 
amendment number 6, offered by Ranking Member Velazquez. All 
those in favor, say aye.
    All opposed, no.
    Ms. Velazquez. The ayes have it.
    Chairman Graves. The noes appear to have it. The noes do 
have it.
    Ms. Velazquez. I ask for a recorded vote.
    Chairman Graves. Absolutely. A recorded vote has been 
ordered. A recorded vote has been ordered pursuant to rule 10 
of the Committee's rules. Proceedings on the amendment will be 
postponed. Again, we want to make sure everybody is here when 
we do our votes so that we don't hang anybody on that.
    Ranking Member Velazquez, you are recognized for----
    Ms. Velazquez. Mr. Chairman, I have an amendment at the 
desk. It is amendment number 7.
    Chairman Graves. Amendment number 7. Will the clerk please 
read the title?
    The Clerk. Page 3, line 12, insert before the period at the 
end the following----
    Chairman Graves. I ask unanimous consent that the bill be 
considered as read. Seeing no objections, I yield to Ranking 
Member Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    I think we are all united by our desire to help small 
businesses, and this is why we are here today. Of course, it is 
clear that there are different approaches to accomplish this. 
Some have seemed to suggest that the best way to help 
entrepreneurs is by grinding the regulatory process to a halt. 
They have often cited the challenges of tax and health care 
matters. However, attempting to slow regulation could actually 
harm small businesses in certain cases.
    There is clearly one area of regulation that I think we can 
all agree where stymieing the process could hurt small 
businesses, and this is regulations issued by the SBA regarding 
lending, investment, contracting and entrepreneurial 
development. These regulations actually help small businesses 
get the resources they need. They are not onerous. Rather, they 
just do the opposite. They allow small businesses to get access 
to capital, procurement opportunities or technical assistance. 
These regulations allowed the agency to provide entrepreneurs 
with more than $20 billion in capital last year. Without such 
rules, business owners will be unable to apply for loans, and 
many will go without the financing they need.
    In addition, there are many instances where the SBA might 
establish a new investment program for veterans returning from 
the war in Afghanistan. And if they do, we should make sure 
that nothing stands in SBA's way to get this initiative up and 
running quickly.
    Unfortunately, while well intentioned, H.R. 527 is a one-
size-fits-all policy that views all regulations as being bad 
for businesses. This is far from the case when it comes to the 
SBA, who is charged with helping small businesses. The truth is 
that H.R. 527 will cause delays in the issuance of regulations 
at the SBA. This means that small businesses will have to wait 
longer for critical capital, contracts or technical assistance, 
resulting in slower job creation in our communities.
    With the economy struggling with high unemployment, we need 
to be doing everything we can to help small businesses hire 
more people. Enabling the SBA to channel its resources to 
entrepreneurs more expeditiously will do this. For this reason 
I urge a yes vote on this amendment, and I yield back the 
balance of my time.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Seeing none, I cannot support the amendment simply because, 
you know, the SBA is one agency that should ensure its 
regulations maximize its benefits to small businesses. The 
point here is to strengthen the RFA, to make sure that 
regulations either do the least amount of harm or the most good 
for small businesses. And I think it should apply in full force 
to the SBA, if no other agency.
    So with that, the question is on the amendment number 7 
offered by Ranking Member----
    Ms. Velazquez. Mr. Chairman, if you will yield.
    Chairman Graves. I would yield.
    Ms. Velazquez. You know, when we pass any legislation here 
to create a new venture capital, small business lending, and 
Members will come back to ask questions as to why that program 
is up and running, then you are going to have the SBA 
Administrator here telling us it is happening, and it is your 
fault because we enacted legislation that is a one-size-fits-
all policy, applying to everything that is related to Federal 
agencies, including SBA when we need to put money into the 
hands of small businesses. We will be responsible for not doing 
that quickly as we need in order for them to create jobs.
    Thank you for yielding.
    Chairman Graves. Absolutely. And I again reiterate that the 
purpose of the RFA is to make sure that agencies, when they 
pass rules and regulations, don't harm small businesses. And I 
think it should apply to the SBA just as it applies to 
everybody else.
    So with that, the question is on the amendment number 7 
offered by Ranking Member Velazquez. All those in favor, say 
aye.
    All those opposed, no.
    Ms. Velazquez. The ayes have it.
    Chairman Graves. The noes appear to have it. The noes do 
have it. The amendment is----
    Ms. Velazquez. Recorded vote, Mr. Chairman. Recorded vote.
    Chairman Graves. Absolutely. Pursuant to a recorded vote--
pursuant to rule 10 of the Committee's rules, proceedings on 
the amendment will be postponed.
    We will move to Mr. Critz, and you have an amendment. Which 
one?
    Mr. Critz. Critz amendment 18.
    Chairman Graves. Eighteen. Number 8.
    Mr. Critz. Oh, number 8.
    Chairman Graves. I hope we don't have 18.
    Mr. Critz. Eight on your list.
    Chairman Graves. Would the clerk please read the title, 
Critz amendment number 8?
    The Clerk. Page 17, line 9, insert after ``small entities'' 
the following.
    Chairman Graves. I would ask unanimous consent that the 
amendment be considered read. Seeing no objections, the 
amendment is considered read.
    And I yield to Mr. Critz for an explanation of your 
amendment.
    Mr. Critz. Thank you, Mr. Chairman.
    My amendment is quite simple. It would require the Small 
Business Advocacy Review Panel to report--report to include an 
assessment of a proposed rule's impact on the cost small 
entities pay for energy.
    Volatility and fluctuations in energy prices and supply 
disproportionately impact the small business sector, 
particularly those in transportation-related industries. This 
would require that the reports issued by Small Business 
Advocacy Review Panels include an assessment of a proposed 
rule's impact on the cost of energy to small business. It would 
provide agencies with vital information about how a regulation 
could be modified so that small businesses would incur lower 
energy prices.
    With the price of gas as it is, and with the discovery of 
natural gas across regions of Pennsylvania, we see a 
possibility of really lowering our energy costs and doing good 
things for small business. And as we know, any increase in 
costs has a stronger or a larger impact on small business, who 
have less flexibility. So my proposed amendment is only to make 
sure that any proposed rule that we are looking at, what the 
impact is to energy costs. And I yield support for my amendment 
and yield back.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    I think this should be assessed under the total cost of the 
proposed rule, but I believe the gentleman's clarification on 
energy is entirely appropriate. And with that, I support the 
amendment.
    The question is on the amendment number 8 by Mr. Critz. All 
those in favor, say aye.
    All those opposed, no.
    The ayes appear to have it. The ayes do have it. The 
amendment is adopted.
    Mr. Critz, you have amendment number 9?
    Mr. Critz. Yes, Mr. Chairman.
    Chairman Graves. Would the clerk please read the title.
    The Clerk. Page 18, insert after line 11 the following, and 
redesignate succeeding subsections accordingly.
    Chairman Graves. I ask unanimous consent that the amendment 
be considered as read. Seeing no objections, we will move 
forward.
    Mr. Critz, you are recognized on amendment number 9.
    Mr. Critz. Thank you, Mr. Chairman.
    As much of the discussion that has been going on in the 
public eye and in Congress, we have been talking about trade 
agreements. And as a member of this panel, obviously we want to 
make sure that when this country is negotiating trade 
agreements, we see and protect the interests of small business 
and see what the impact would be on them. And that is why I 
offer this amendment. But in discussions with leadership, I 
think the best way forward is that I am going to withdraw this 
amendment so that I can work with the leadership to make sure 
that there is protections for small business, and therefore I 
withdraw my amendment, Mr. Chairman.
    Chairman Graves. Thanks, Mr. Critz. And I assure you we 
will work with you and try to figure out if we need to do 
anything or make sure what you are trying to address is in the 
bill.
    I now recognize Ranking Member Velazquez. We have number 5 
and number 4.
    I might let the Committee know that we--there is votes--
seven votes started in Education and Workforce. So as soon as 
they get through those, we will--and hopefully they will be 
through with them by the time we bring the votes back up. 
Again, we want to make sure we don't hang anybody on votes, so 
we will wait until everybody gets here.
    Ms. Velazquez. I have an amendment at the desk, and this is 
amendment number 4.
    Chairman Graves. Would the clerk please read the title, 
amendment number 4, Ranking Member Velazquez.
    The Clerk. At the end of the bill--add, at the end of the 
bill, the following.
    Chairman Graves. I would ask unanimous consent that the 
amendment be considered as read. Seeing no objections----
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Graves. I recognize----
    Ms. Velazquez. Our Nation's debt has reached a critical 
level as evidenced by the ongoing negotiations surrounding the 
debt ceiling. With this in mind, all Committees must be careful 
as they create new programs such as the ones in H.R. 527 which 
entail significant costs.
    H.R. 527 establishes sweeping new authorities and 
responsibility for the Office of Advocacy. This includes 
expanding the panel process to every government agency from 3 
to 50-52, while currently it is only at 3 agencies. The bill 
also requires Advocacy to issue rules and reflect subject IRS 
interpretive rules and land management plans to the RFA.
    These are significant new obligations for Advocacy, which 
only has a $9 million budget and 46 employees. I am sure that 
this is not an accident that H.R. 527 contains no authorization 
of funding to carry out these provisions. And given the fiscal 
constraints we are operating under, now is not the time to be 
expanding the bureaucracy. Therefore, the amendment I am 
offering is meant to provide an airtight guarantee that this 
bill will not spend taxpayers' dollars that we don't have. It 
simply clarifies that SBA cannot spend any new funds to 
implement the act. If it does spend new money, it cannot 
increase the Federal budget deficit.
    These requirements will ensure that H.R. 527 is not adding 
to the debt that we are all so concerned about. All committees 
are encountering this issue, and we must play our part. We need 
to be more careful about spending taxpayers' money, and 
including an ironclad guarantee in this bill accomplishes that.
    If Members wish to truly reduce the Nation's deficit, then 
supporting this amendment should be noncontroversial. With the 
Federal debt exceeding 14 trillion, we cannot simply pass a 
bill, even if they have important goals, and just hope that it 
does not cost too much. We need to take a stand and make sure 
the work we do this year does not add to the debt. I urge my 
colleagues to not only talk the talk, but walk the walk by 
ensuring this bill does not add red ink to our budget deficit. 
With that, I ask a yes vote and yield the balance of my time.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Mr. Schrader.
    Mr. Schrader. Just a point of inquiry. I mean, how are we 
going to pay for this at the end of the day? What is the plan?
    Chairman Graves. Well, I will refer to counsel.
    Chief Counsel. I wouldn't actually expect that the 
requirements set forth in this bill will actually add any 
additional costs to the ongoing rulemaking process. The Office 
of Advocacy already reviews every agency's regulations, having 
worked in that office for over 9 years. They actually review 
every agency's regulation. The other agencies that would be 
involved in the panel process, for example, already have 
significant numbers of employees devoted to the rulemaking 
process. Having them meet seems to be--would seem to be a 
fairly logical result of attempting to gather information prior 
to the publication of the proposed rule. So I would argue that 
it would have no increase in the impact on costs.
    Mr. Schrader. I am sorry. Just one further clarification, 
Mr. Chair. Just trying--but if the agency is now making rules, 
not just responding, wouldn't that require more time and effort 
they would have to research stuff and convene themselves 
themselves? Did I misunderstand that?
    Chief Counsel. Well, the agencies clearly will have to 
gather more information, but I would argue that, for example, 
for many of the rules that would be covered with additional 
analysis under this bill, they are already required to do that 
type of analysis under Executive Order 12866, which requires 
agencies for significant rules to do a complete benefit-cost 
analysis. For rules that the agency would have a significant 
environmental impact, and there are a lot of rules that 
actually do, agencies are already required to comply with the 
requirements that are issued by the Council on Environmental 
Quality to access indirect socioeconomic impacts.
    So I would suggest that it is most likely that the data is 
already out there. It just needs to be tailored in a manner to 
assess the adequacy of the impact on small business as opposed 
to the data now simply being there in this--well, there is this 
economic impact, but we haven't actually focused on the 
consequences to small business. So that is what this would do. 
I don't think the data gathering that is already going on would 
add any additional costs because they should already be doing 
that data gathering if they are going to do rational 
rulemaking.
    Ms. Velazquez. Would the gentleman yield?
    Chairman Graves. Not quite. You have still got a little bit 
of time. But regardless, I will recognize the ranking member, 
and then I will make a statement.
    Ms. Velazquez. It is just beyond me. You could dance all 
over this question all day around, but how could you say that 
this is not going to require more resources when you are adding 
over 50 new agencies to the panel process? And this is 
Washington, and this is the Federal Government. So if it is not 
going to add any more costs, then the chairman will have no 
problem accepting my amendment, because this is exactly what I 
am asking for.
    And with that, I yield back.
    Chairman Graves. You know, under this amendment--and I will 
reclaim the time. But under this amendment, you know, all we 
are asking that Federal agencies to do is their job.
    Bottom line is is that Federal agencies implement 
regulations that are burdensome to businesses, whether it is 
the Federal deficit or a budget surplus. It doesn't make any 
difference one way or the other. I want to know when a Federal 
agency is proposing something that is going to cost small 
businesses a lot of money, and there are certain things that 
the Federal Government should be doing no matter what, and this 
is one of them. This is something that needs to be done, and, 
again, it is the law. They are supposed to be doing it. We are 
going to put some teeth into it to make darn sure they are 
doing it. I want to make sure we know and the Federal 
Government is preventing businesses from doing what businesses 
want to do.
    With that, the question is on the amendment number 4, by 
Ranking Member Velazquez. All those in favor, say aye.
    All those opposed, no.
    Ms. Velazquez. Mr. Chairman, I am sorry. Just one inquiry. 
What will happen if the report comes back from the CBO and it 
does show that it is going to cost more money than the $9 
million that has been allocated? What will happen? What are we 
going to do? That is my only question.
    Chairman Graves. We will deal with it then. But the bottom 
line is I want the Federal agencies to do their job.
    Going back to the vote. All those in favor, say aye.
    All those opposed, no.
    The noes appear to have it. The noes do have it. The 
amendment is not adopted.
    Ms. Velazquez. I ask for a recorded vote, Mr. Chairman.
    Chairman Graves. A recorded vote has been requested 
pursuant to rule 10 of the Committee's rule. Proceedings on the 
amendment shall be postponed.
    You have number 5?
    Ms. Velazquez. Yes, sir. I have an amendment at the desk, 
amendment number 5.
    Chairman Graves. The clerk will please read the amendment.
    The Clerk. Strike all after the enacting clause and insert 
the following.
    Ms. Velazquez. I ask unanimous consent that the amendment 
be considered as read.
    Chairman Graves. Seeing no objection, the ranking member is 
recognized.
    Ms. Velazquez. The Regulatory Flexibility Act has served 
small businesses well, reducing regulatory costs by $15 billion 
in 2010 alone. Yes, it could do better, and the substitute 
amendment before us does it. However, unlike H.R. 527, this 
substitute does not create what amounts to an array of unfunded 
mandates on the Office of Advocacy.
    This substitute is the same bipartisan legislation, 
bipartisan, introduced by our Committee and by our former 
colleague Brad Ellsworth from a previous Congress. At the time 
this Committee worked in a bipartisan manner and reported it 
out by a recorded vote of 26 to 0.
    It makes improvements to the most significant deficiencies 
facing RFA without the sweeping and expensive changes of H.R. 
527. This includes making sure that agencies live up to their 
obligations to review the burdens of existing rule on small 
businesses. The GAO has reported on numerous occasion that 
agency compliance with this requirement was poor. My amendment 
holds the agencies more accountable by requiring them to report 
the results of their reviews to Congress annually.
    This substitute also addresses what the Chief Counsel for 
Advocacy has described as the biggest loophole in the law: the 
fact that agencies do not have to consider the full economic 
impact of the rules and regulations on small businesses. By 
fixing this problem, my amendment will require agencies to 
consider the indirect impacts of the rules on small businesses.
    Steps are also taken to make red flag analysis more 
detailed so that agencies cannot ignore the RFA and simply 
certify that a rule has no significant impact on small 
businesses. Addressing this matter will ensure that agencies 
are required to provide a more factual basis for such 
certifications, rather than just a sentence which dismisses the 
concerns of small firms.
    Unlike H.R. 527, this substitute does not create a new 
governmentwide bureaucracy or foist new responsibility on the 
Office of Advocacy, which only has a $9 million budget. 
Instead, this substitute makes the most important changes to 
the RFA that small businesses have called for over the last 5 
years. In doing so, it is cost-effective and responsible to the 
taxpayers.
    When it was developed in a prior Congress, both sides of 
the aisle and the small business community had a hand in 
developing it. As a result, the substitute will strengthen red 
flags and help stop the growth of small business compliance 
costs. I urge Members to vote yes, and I yield the balance of 
my time back.
    Chairman Graves. Does any other Member wish to be heard on 
the amendment?
    Seeing none, the amendment in the form of a substitute by 
the gentlelady from New York, it obviously recognizes the RFA 
and the analysis done under it needs strengthening. But given 
the increased regulatory burden that is coming out of this 
administration, I think that much bolder action needs to be 
taken, and that is the reason we came up with 527, in which 
case I cannot support the gentlelady's amendment.
    With that, the question is on the amendment number 5, the 
gentlelady from New York, Ms. Velazquez.
    Ms. Velazquez. Mr. Chairman, I just would like to add this 
is Brad Ellsworth's bill. He wasn't a liberal, didn't get any 
score on liberal caucus. Very conservative. The legislation was 
a bipartisan bill. And I assure you that this legislation that 
is going to be reported today will not be passed on the Senate 
nor signed by the President.
    Here we are seeking solutions to small business needs, and 
rather than passing something to score political points, we 
should pass something that has bipartisan support and get it 
done on behalf of small businesses.
    With that, I yield back. Thank you.
    Chairman Graves. The question is on the amendment number 5 
by Ranking Member Velazquez. All those in favor, say aye.
    All those opposed, no.
    The noes appear to have it.
    Ms. Velazquez. Recorded vote.
    Chairman Graves. A recorded vote has been requested. 
Pursuant to rule 10 of the Committee's rules, proceedings on 
the amendment shall be postponed.
    Are there any other amendments to H.R. 527?
    Seeing none, the Committee is going to stand in recess 
shortly until we get the rest of our Members up here. And 
again, I said that I don't want to hang any Member when it 
comes to votes, and so we are going to stand in recess for a 
very short period of time. After that we will take up the next 
bill, which should not take very long at all. With that, we 
will stand in recess shortly and get everybody up here.
    [Recess.]
    Chairman Graves. We will go ahead and bring the hearing 
back to order.
    We have four amendments that recorded votes were requested 
on. We will go through those real quick, and then we will 
dispose of H.R. 585 real fast, which shouldn't take long at 
all.
    Right now the question occurs on agreeing to the amendment 
offered by Representative Velazquez, which a recorded vote was 
ordered. The first one is going to be Velazquez number 6. Go 
ahead and call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no.
    Mr. Bartlett?
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King?
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Coffman?
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney?
    [No response.]
    The Clerk. Mr. Tipton?
    Mr. Tipton. No.
    The Clerk. Mr. Tipton votes no.
    Mr. Landry?
    Mr. Landry. No.
    The Clerk. Mr. Landry votes no.
    Ms. Herrera Beutler?
    Mr. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West?
    Mr. West. Yes.
    The Clerk. Mr. West votes yes.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh?
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Hanna?
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Barletta?
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Ms. Velazquez?
    Ms. Velazquez. Yes.
    The Clerk. Ms. Velazquez votes yes.
    Mr. Schrader?
    Mr. Schrader. Yes.
    The Clerk. Mr. Schrader votes yes.
    Mr. Critz?
    Mr. Critz. Yes.
    The Clerk. Mr. Critz votes yes.
    Mr. Altmire?
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes.
    Ms. Clarke?
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes.
    Ms. Chu?
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes yes.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes yes.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. Yes.
    The Clerk. Mr. Peters votes yes.
    Mr. Owens?
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes yes.
    Mr. Keating?
    [No response.]
    Chairman Graves. Are there any other Members that wish to 
vote?
    Mr. Mulvaney?
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Chairman Graves. The clerk will report the vote.
    The Clerk. Thirteen noes and ten ayes.
    Chairman Graves. On this vote there were 10 yeas and 13 
noes. The amendment is not agreed to.
    The question now occurs on agreeing to the amendment 
offered by Representative Velazquez, number 7. The clerk will 
call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no.
    Mr. Bartlett?
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King?
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Coffman?
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney?
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. Tipton. No.
    The Clerk. Mr. Tipton votes no.
    Mr. Landry?
    Mr. Landry. No.
    The Clerk. Mr. Landry votes no.
    Ms. Herrera Beutler?
    Ms. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West?
    Mr. West. No.
    The Clerk. Mr. West votes no.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh?
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Hanna?
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Barletta?
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Ms. Velazquez?
    Ms. Velazquez. Aye.
    The Clerk. Ms. Velazquez votes yes.
    Mr. Schrader?
    Mr. Schrader. Yes.
    The Clerk. Mr. Schrader votes yes.
    Mr. Critz?
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes yes.
    Mr. Altmire?
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes.
    Ms. Clarke?
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes.
    Ms. Chu?
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes yes.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes yes.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes yes.
    Mr. Owens?
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes yes.
    Mr. Keating?
    [No response.]
    Chairman Graves. Are there any other Members who wish to 
vote?
    The clerk shall report the vote.
    The Clerk. Nine yeses, fourteen noes.
    Chairman Graves. On this vote, there were 9 yeas, 14 noes. 
The amendment is not agreed to.
    The question now occurs on agreeing to the amendment 
offered by Representative Velazquez, number 4, which would be 
Velazquez amendment number 4. The clerk shall call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no.
    Mr. Bartlett?
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King?
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Coffman?
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney?
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. Tipton. No.
    The Clerk. Mr. Tipton votes no.
    Mr. Landry?
    Mr. Landry. No.
    The Clerk. Mr. Landry votes no.
    Ms. Herrera Beutler?
    Ms. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West?
    Mr. West. Yes.
    The Clerk. Mr. West votes yes.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh?
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Hanna?
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Barletta?
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Ms. Velazquez?
    Ms. Velazquez. Yes.
    The Clerk. Ms. Velazquez votes yes.
    Mr. Schrader?
    Mr. Schrader. Yes.
    The Clerk. Mr. Schrader votes yes.
    Mr. Critz?
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes yes.
    Mr. Altmire?
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes.
    Ms. Clarke?
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes.
    Ms. Chu?
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes yes.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes yes.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes yes.
    Mr. Owens?
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes yes.
    Mr. Keating?
    [No response.]
    Chairman Graves. Do any other Members wish to vote?
    Seeing none, the clerk shall report the vote.
    The Clerk. Ten ayes, thirteen noes.
    Chairman Graves. On this vote there were 10 yeas, 13 noes. 
The amendment is not agreed to.
    The question now occurs on the amendment offered by 
Representative Velazquez in which a recorded vote was ordered. 
This is Velazquez number 5. The clerk shall call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no.
    Mr. Bartlett?
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King?
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Coffman?
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney?
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. Tipton. No.
    The Clerk. Mr. Tipton votes no.
    Mr. Landry?
    Mr. Landry. No.
    The Clerk. Mr. Landry votes no.
    Ms. Herrera Beutler?
    Ms. Herrera Beutler. No.
    The Clerk. Ms. Herrera Beutler votes no.
    Mr. West?
    Mr. West. No.
    The Clerk. Mr. West votes no.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh?
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Hanna?
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Barletta?
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Ms. Velazquez?
    Ms. Velazquez. Aye.
    The Clerk. Ms. Velazquez votes yes.
    Mr. Schrader?
    Mr. Schrader. Yes.
    The Clerk. Mr. Schrader votes yes.
    Mr. Critz?
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes yes.
    Mr. Altmire?
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes.
    Ms. Clarke?
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes.
    Ms. Chu?
    Ms. Chu. Aye.
    The Clerk. Ms. Chu votes yes.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes yes.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes yes.
    Mr. Owens?
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes yes.
    Mr. Keating?
    [No response.]
    Chairman Graves. Are there any other Members wishing to 
vote?
    Seeing none, the clerk shall report the vote.
    The Clerk. Nine ayes, fourteen noes.
    Chairman Graves. On this vote, there were 9 yeas, 14 noes. 
The amendment is not agreed to.
    Are there any other Members wishing to offer an amendment?
    Seeing none, the question is on agreeing to H.R. 527, as 
amended. All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The bill is 
favorably reported to the House.
    Chairman Graves. Next order of business is H.R. 585, the 
Small Business Size Standard Act of 2011. The purpose of this 
bill is to ensure that Federal agencies have a consistent 
determination concerning the use of non-SBA size standards in 
the regulatory programs.
    Under the RFA, an agency can consult with the Office of 
Advocacy and utilize a different definition of a small business 
than the one adopted by the SBA when it prepares an initial 
regulatory flexibility analysis. If the agency then uses that 
definition to develop the regulation that reduces reporting 
burdens on small businesses, it would have to get the approval 
of the Administrator of the SBA under the Small Business Act. 
The Administrator might reject the request. Thus, an agency 
seeking to help small businesses create jobs by reducing 
paperwork might find assistance from the Office of Advocacy, 
but be frustrated by a different decision from the 
Administrator. H.R. 585 simply ensures that such a result could 
not happen.
    Nothing in the bill transfers to the Office of Advocacy the 
authority to make small business size determinations for 
eligibility of assistance under the Small Business Act or the 
Small Business Investment Act.
    So with that I now recognize Ranking Member Velazquez for 
her remarks on H.R. 585.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Size standards are a highly technical, but absolutely 
critical component of our Committee's work. After all, they are 
what legally determine whether a company is, in fact, a small 
business. Because of this we are able to effectively channel 
resources to these entrepreneurs so they are better able to 
succeed in creating jobs.
    Historically the SBA's Office of Size Standards has been 
responsible for this area. It establishes and reviews standards 
across a wide range of industries. In some instances this 
office approves the small business size standard used by other 
agencies when implementing certain statutes. Aside from the 
Small Business Act and the Small Business Investment Act, this 
makes sense, because the SBA has the experience and resources 
necessary to determine this matter governmentwide. The 
legislation before us, H.R. 585, changes this. While the SBA 
will continue to approve size standards for its enabling 
statutes, it will no longer do so for all the statutes.
    The result of approving this legislation will be to create 
a duplicative size standard authority in both the SBA and the 
Office of Advocacy. Such a move is curious given that the 
Committee spent so much time discussing the need to reduce 
bureaucratic duplication. In fact, there is an entire section 
entitled ``Government Waste and Duplication in SBA Programs'' 
in the Committee's budget views.
    Such duplication is always concerning, but particularly so 
when the country is faced with staggering debt. This 
legislation will add to this debt by requiring the Office of 
Advocacy to hire new personnel and conduct analysis identical 
to those already in existence in the SBA's Office of Size 
Standards. Common sense tells you that creating such similar 
entities is just plain unnecessary and simply not a good use of 
taxpayers' money. For this reason, your own witness, the Chief 
Counsel of Advocacy under President Ronald Reagan, testified 
just last month before this Committee that advocacy should not 
take on the new responsibilities outlined in H.R. 585.
    The mission of the Office of Advocacy is to be a champion 
for our Nation's small businesses, not to determine size 
standards. The SBA already does this. We need to make sure that 
advocacy remains true to this goal and continues to be a tool 
to limit waste, rather than becoming a source of it.
    With that, Mr. Chairman, I yield back.
    Chairman Graves. Any other Members that wish to be 
recognized for a statement on H.R. 585?
    Seeing none, the Committee now moves for consideration of 
H.R. 585. The clerk will please report the title of the bill.
    The Clerk. H.R. 585, To amend the Small Business Act to 
provide for the establishment and approval of small business 
concern size standards by the Chief Counsel for Advocacy of the 
Small Business Administration.
    Chairman Graves. I ask unanimous consent that H.R. 585 be 
considered as read and open for amendment in its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Ms. Velazquez. Yes, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Graves. Clerk, please report the amendment.
    The Clerk. Add, at the end of the bill, the following.
    Ms. Velazquez. I ask unanimous consent that my amendment be 
considered as read.
    Chairman Graves. Seeing no objection, so moved.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Chairman, ensuring that agencies are operated in an 
efficient manner has never been more important. This means that 
efforts must be made to limit programs that duplicate each 
other. Such duplication is unnecessary at any time, but 
certainly so when our Federal debt is now exceeding $14 
trillion.
    Unfortunately, the underlying bill is an attempt to solve a 
bureaucratic coordination problem which creates a duplication 
of resources within the SBA. To approve a size standard 
requires expertise and analytical resources which the Office of 
Advocacy will have to acquire. This will duplicate similar 
resources maintained by the SBA in its Office of Size 
Standards. In this regard, H.R. 585 raises a red flag.
    To address this problem my amendment will require the 
Office of Advocacy to report to Congress on the feasibility, 
personnel, resources required and overall cost to carry out 
this legislation. It will also require to assess whether the 
legislation will result in a duplication of functions. To make 
sure that costs are controlled, it will then require the Chief 
Counsel to certify that H.R. 585 will not result in any 
additional costs.
    This amendment does not require any elaborate study, nor 
does it prohibit H.R. 585 from being implemented, but given the 
fact that we never heard from the Office of Advocacy, it just 
asks before it is implemented that we know how much the 
legislation will cost if it is able to do so, and whether they 
believe it will result in duplication. If the Chief Counsel 
simply reports and certifies to Congress on this, then H.R. 585 
can be implemented.
    At a minimum this will provide the Committee with essential 
information regarding this new law and permit for productive 
oversight to occur. It also provides taxpayers with greater 
transparency. Such an effort is in line with the Committee's 
oversight plan, which goes to great lengths to limit 
duplication within the SBA. For this reason, I urge my 
colleagues to support and vote yes on this amendment, which is 
a vote for transparency and reducing waste and duplication in 
the SBA.
    With that I yield back, Mr. Chairman.
    Chairman Graves. Any other Members that wish to be heard on 
the amendment?
    Seeing none, as I explained earlier, this simply transfers 
a function currently performed by the Administrator to the 
Office of Chief Counsel of Advocacy. There isn't going to be 
any duplication that occurs. The bill just ensures that an 
agency does not go through the pointless exercise of having a 
size standard approved under the RFA, and then when it is time 
to put it into place, put the regulation into place, have it 
rejected by the SBA. And I don't believe there will be any 
additional costs because the costs associated with this 
transfer, you know, it is going to be done--the analysis is 
going to be done by one agency or the other. So I don't believe 
there is going to be any additional costs.
    Ms. Velazquez. Mr. Chairman?
    Chairman Graves. Yes.
    Ms. Velazquez. On top of the 52 agencies that we are adding 
to the Office of Advocacy, we are going to add this new 
responsibility, and you mean to say it is not going to cost 
anything?
    Chairman Graves. Well, no, because we are transferring that 
responsibility from one office to the next. We are not asking 
another office to do it all over again.
    So with that, the question is on the amendment by 
Representative Velazquez. All those in favor, say aye.
    All those opposed, no.
    The noes appear to have it.
    Ms. Velazquez. I ask for a recorded vote.
    Chairman Graves. A recorded vote has been requested. Clerk, 
please call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no.
    Mr. Bartlett?
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no.
    Mr. King?
    Mr. King. No.
    The Clerk. Mr. King votes no.
    Mr. Coffman?
    Mr. Coffman. No.
    The Clerk. Mr. Coffman votes no.
    Mr. Mulvaney?
    Mr. Mulvaney. No.
    The Clerk. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. Tipton. No.
    The Clerk. Mr. Tipton votes no.
    Mr. Landry?
    Mr. Landry. No.
    The Clerk. Mr. Landry votes no.
    Ms. Herrera Beutler?
    Ms. Herrera Beutler. Yes.
    The Clerk. Ms. Herrera Beutler votes yes.
    Mr. West?
    Mr. West. Yes.
    The Clerk. Mr. West votes yes.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    The Clerk. Mrs. Ellmers votes no.
    Mr. Walsh?
    Mr. Walsh. No.
    The Clerk. Mr. Walsh votes no.
    Mr. Hanna?
    Mr. Hanna. No.
    The Clerk. Mr. Hanna votes no.
    Mr. Barletta?
    Mr. Barletta. No.
    The Clerk. Mr. Barletta votes no.
    Ms. Velazquez?
    Ms. Velazquez. Aye.
    The Clerk. Ms. Velazquez votes yes.
    Mr. Schrader?
    Mr. Schrader. Yes.
    The Clerk. Mr. Schrader votes yes.
    Mr. Critz?
    Mr. Critz. Aye.
    The Clerk. Mr. Critz votes yes.
    Mr. Altmire?
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes.
    Ms. Clarke?
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes.
    Ms. Chu?
    [No response.]
    The Clerk. Mr. Cicilline?
    Mr. Cicilline. Aye.
    The Clerk. Mr. Cicilline votes yes.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. Aye.
    The Clerk. Mr. Peters votes yes.
    Mr. Owens?
    Mr. Owens. Aye.
    The Clerk. Mr. Owens votes yes.
    Mr. Keating?
    Mr. Keating. Yes.
    The Clerk. Mr. Keating votes yes.
    Chairman Graves. Are there any other Members that wish to 
be recorded?
    Seeing none, clerk, please report the vote.
    The Clerk. Eleven ayes, twelve noes.
    Chairman Graves. Last vote there were 11 ayes, 12 noes. The 
amendment is not agreed to.
    Are there any other Members that wish to offer amendments?
    Mr. Schrader. Mr. Chair, could I move to strike the last 
word briefly?
    Chairman Graves. Absolutely.
    Mr. Schrader. Just a concern on the bill itself. While I 
know it is well intentioned, and I appreciate the chair's 
efforts to entertain the discussion, particularly the ranking 
member, it just seems pretty duplicative to me. I don't see why 
we have two different outfits promulgating rules and size 
standards. I think it is going to be very, very confusing to 
small businesses at the end of the day. And, you know, one of 
our goals of our Committee is to try and eliminate some of the 
duplication and eliminate some of the confusion the small 
businesses face trying to figure out if they fit into this 
program or that program. So with that, I am probably going to 
be voting no, sir.
    Chairman Graves. All right. I appreciate that. Again, we 
are transferring the authority. We are not duplicating it.
    With that, if there are no other amendments, the question 
is on agreeing to H.R. 585. All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it.
    Ms. Velazquez. I ask for a recorded vote.
    Chairman Graves. A recorded vote has been requested. Clerk, 
please call the roll.
    The Clerk. Mr. Graves?
    Mr. Graves. Aye.
    The Clerk. Mr. Graves votes yes.
    Mr. Bartlett?
    Mr. Bartlett. Aye.
    The Clerk. Mr. Bartlett votes yes.
    Mr. Chabot?
    Mr. Chabot. Aye.
    The Clerk. Mr. Chabot votes yes.
    Mr. King?
    Mr. King. Aye.
    The Clerk. Mr. King votes yes.
    Mr. Coffman?
    Mr. Coffman. Aye.
    The Clerk. Mr. Coffman votes yes.
    Mr. Mulvaney?
    Mr. Mulvaney. Aye.
    The Clerk. Mr. Mulvaney votes yes.
    Mr. Tipton?
    Mr. Tipton. Aye.
    The Clerk. Mr. Tipton votes yes.
    Mr. Landry?
    Mr. Landry. Aye.
    The Clerk. Mr. Landry votes yes.
    Ms. Herrera Beutler?
    Chairman Graves. Was that an aye?
    Ms. Velazquez. You understand it is going to increase the 
debt.
    The Clerk. Ms. Herrera Beutler?
    Ms. Herrera Beutler. Yes.
    The Clerk. Ms. Herrera Beutler votes yes.
    Mr. West?
    [No response.]
    The Clerk. Mrs. Ellmers?
    Mrs. Ellmers. Yes.
    The Clerk. Mrs. Ellmers votes yes.
    Mr. Walsh?
    Mr. Walsh. Yes.
    The Clerk. Mr. Walsh votes yes.
    Mr. Hanna?
    Mr. Hanna. Yes.
    The Clerk. Mr. Hanna votes yes.
    Mr. Barletta?
    Mr. Barletta. Yes.
    The Clerk. Mr. Barletta votes yes.
    Ms. Velazquez?
    Ms. Velazquez. No.
    The Clerk. Ms. Velazquez votes no.
    Mr. Schrader?
    Mr. Schrader. No.
    The Clerk. Mr. Schrader votes no.
    Mr. Critz?
    Mr. Critz. No.
    The Clerk. Mr. Critz votes no.
    Mr. Altmire?
    [No response.]
    The Clerk. Ms. Clarke?
    Ms. Clarke. No.
    The Clerk. Ms. Clarke votes no.
    Ms. Chu?
    [No response.]
    The Clerk. Mr. Cicilline?
    Mr. Cicilline. No.
    The Clerk. Mr. Cicilline votes no.
    Mr. Richmond?
    [No response.]
    The Clerk. Mr. Peters?
    Mr. Peters. No.
    The Clerk. Mr. Peters votes no.
    Mr. Owens?
    Mr. Owens. No.
    The Clerk. Mr. Owens votes no.
    Mr. Keating?
    Mr. Keating. No.
    The Clerk. Mr. Keating votes no.
    Chairman Graves. Are there any other Members that wish to 
be recorded?
    Seeing none, the clerk please report the vote.
    The Clerk. Thirteen ayes, eight noes.
    Chairman Graves. By a vote of 13 yeas, 8 noes, the bill is 
favorably reported to the House.
    I would ask unanimous consent that the staff be authorized 
to make any technical and conforming changes and take all 
necessary actions to report the bill to the House.
    Ms. Velazquez. Mr. Chairman, I just would like for the 
Committee to be able to notice that we are going to be filing 
our own views on both bills.
    Chairman Graves. So noted.
    With that, the hearing is adjourned. Thanks, everybody.
    [Whereupon, at 4:04 p.m., the Committee was adjourned.]

                         Amendment to H.R. 527


                    Offered by Mr. Owens of New York

  Add at the end of the bill the following:

SEC. 10. AGENCY PREPARATION OF GUIDES.

  Section 212(a)(5) the Small Business Regulatory Enforcement 
Fairness Act of 1996 (5 U.S.C. 601 note) is amended to read as 
follows:
          ``(5) Agency preparation of guides.--The agency 
        shall, in its sole discretion, taking into account the 
        subject matter of the rule and the language of relevant 
        statutes, ensure that the guide is written using 
        sufficiently plain language likely to be understood by 
        affected small entities. Agencies may prepare separate 
        guides covering groups or classes of similarly affected 
        small entities and may cooperate with associations of 
        small entities to distribute such guides. In developing 
        guides, agencies shall solicit input from affected 
        small entities or associations of affected small 
        entities. An agency may prepare guides and apply this 
        section with respect to a rule or a group of related 
        rules.''.

                         Amendment to H.R. 527


                   Offered by Mr. Schrader of Oregon


  Page 9, insert after line 15 the following (and redesignate 
succeeding sections accordingly):

SEC. 3. EXPANSION OF REPORT OF REGULATORY AGENDA.

  Section 602 of title 5, United States Code, is amended----
          (1) in subsection (a)----
                  (A) in paragraph (2), by striking ``and'' at 
                the end;
                  (B) by redesignating paragraph (3) as 
                paragraph (4); and
                  (C) by inserting after paragraph (2) the 
                following:
          ``(3) a brief description of the sector of the North 
        American Industrial Classification System that is 
        primarily affected by any rule which the agency expects 
        to propose or promulgate which is likely to have a 
        significant economic impact on a substantial number of 
        small entities; and''.
          (2) in subsection (c), to read as follows:
  ``(c) Each agency shall prominently display a plain language 
summary of the information contained in the regulatory 
flexibility agenda published under subsection (a) on its 
website within 3 days of its publication in the Federal 
Register. The Office of Advocacy of the Small Business 
Administration shall compile and prominently display a plain 
language summary of the regulatory agendas referenced in 
subsection (a) for each agency on its website within 3 days of 
their publication in the Federal Register.''.

                         Amendment to H.R. 527


                    Offered by Mr. Owens of New York


  Page 20, insert after line 5 the following (and redesignate 
succeeding sections accordingly):

  ``(c) The plan shall include a section that details how an 
agency will conduct outreach to and meaningfully include small 
businesses for the purposes of carrying out this section. The 
agency shall include in this section a plan for how the agency 
will contact small businesses and gather their input on 
existing agency rules''.

                         Amendment to H.R. 527


                  Offered by Ms. Velazquez of New York


  Page 3, line 12, insert before the period at the end the 
following:
The amendment made by this subsection shall not apply to a rule 
making by the Administrator of the Small Business 
Administration regarding the contracting, lending, investment, 
or entrepreneurial development programs of the Administrator
  Page 13, insert after line 6 the following:
  (f) Application to Certain Rules.--This section and the 
amendments made by this section shall not apply to a rule 
making by the Administrator of the Small Business 
Administration regarding the contracting, lending, investment, 
or entrepreneurial development programs of the Administrator.

  Page 15, insert after line 3 the following:
  (c) Application to Certain Rules.--This section and the 
amendments made by this section shall not apply to a rule 
making by the Administrator of the Small Business 
Administration regarding the contracting, lending, investment, 
or entrepreneurial development programs of the Administrator.

  Page 18, line 17, insert before the period at the end the 
following:
The amendment made by this section shall not apply to a rule 
making by the Administrator of the Small Business 
Administration regarding the contracting, lending, investment, 
or entrepreneurial development programs of the Administrator

                         Amendment to H.R. 527


                  Offered by Ms. Velazquez of New York


  Page 17, line 12, insert after ``entities.'' the following: 
``Such report shall also include a total cost of conducting the 
panel described in subsection (c)(2) as well as a detailed 
report of the components of that total cost, including expenses 
of officers and employees of the Federal government (at rates 
authorized for such officers and employees under subchapter I 
of chapter 57 of title 5, United States Code) who participate 
in the panel and the rate of salary or basic pay of each 
officer or employee of the Federal government who participates 
in the panel, prorated to account for time of service on the 
panel.''

  Page 17, insert after line 12 the following (and redesignate 
succeeding paragraphs accordingly):
          ``(3) Not later than 60 days after the end of a 
        fiscal year, the Chief Counsel shall submit a 
        consolidated report detailing the total cost of all 
        panels conducted pursuant to subsection (c)(2) in that 
        fiscal year. This report shall include a detailed 
        description of the components of the total cost, 
        including expenses of officers and employees of the 
        Federal government (at rates authorized for such 
        officers and employees under subchapter I of chapter 57 
        of title 5, United States Code) who participate in the 
        panel and the rate of salary or basic pay of each 
        officer or employee of the Federal government who 
        participates in the panel, prorated to account for time 
        of service on the panel.''.

                         Amendment to H.R. 527


                  Offered by Ms. Velazquez of New York

  Strike all after the enacting clause and insert the 
following:

SECTION 1. SHORT TITLE.

  This Act may be cited as the ``Small Business Regulatory 
Improvement Act of 2011''.

SEC. 2. FINDINGS.

  Congress finds the following:
          (1) Small businesses are frequently the source of new 
        products, methods, and innovations.
          (2) A vibrant and growing small business sector is 
        critical to creating jobs in a dynamic economy.
          (3) Regulations designed for application to large-
        scale entities have been applied uniformly to small 
        businesses and other small entities.
          (4) Uniform Federal regulatory and reporting 
        requirements in many instances have imposed on small 
        businesses and other small entities disproportionately 
        burdensome demands, including legal, accounting, and 
        consulting costs.
          (5) Since 1980, Federal agencies have been required 
        to recognize and take account of the differences in the 
        scale and resources of regulated entities but have 
        failed to do so.
          (6) Alternative regulatory approaches that do not 
        conflict with the stated objectives of the statutes the 
        regulations seek to implement may be available and may 
        minimize the significant economic impact of regulations 
        on small businesses and other small entities.
          (7) Federal agencies have failed to analyze and 
        uncover less costly alternative regulatory approaches, 
        despite the fact that the chapter 6 of title 5, United 
        States Code (commonly known as the Regulatory 
        Flexibility Act), requires them to do so.
          (8) Federal agencies continue to interpret chapter 6 
        of title 5, United States Code, in a manner that 
        permits them to avoid their analytical 
        responsibilities.
          (9) Significant changes are needed in the methods by 
        which Federal agencies develop and analyze regulations, 
        receive input from affected entities, and develop 
        regulatory alternatives that will lessen the burden or 
        maximize the benefits of final rules to small 
        businesses and other small entities.
          (10) It is the intention of the Congress to amend 
        chapter 6 of title 5, United States Code, to ensure 
        that all impacts, including foreseeable indirect 
        effects, of proposed and final rules are considered by 
        agencies during the rulemaking process and that the 
        agencies assess a full range of alternatives that will 
        limit adverse economic consequences or enhance economic 
        benefits.
          (11) Federal agencies should be capable of assessing 
        the impact of proposed and final rules without delaying 
        the regulatory process or impinging on the ability of 
        Federal agencies to fulfill their statutory mandates.

SEC. 3. CLARIFICATION AND EXPANSION OF RULES COVERED BY THE REGULATORY 
                    FLEXIBILITY ACT.

  Section 601 of title 5, United States Code, is amended by 
adding at the end the following new paragraph:
          ``(9) Economic impact.--The term `economic impact' 
        means, with respect to a proposed or final rule--
                  ``(A) any direct economic effect on small 
                entities of such rule; and
                  ``(B) any indirect economic effect on small 
                entities which is reasonably foreseeable and 
                results from such rule (without regard to 
                whether small entities will be directly 
                regulated by the rule).''.

SEC. 4. REQUIREMENTS PROVIDING FOR MORE DETAILED ANALYSES.

  (a) Initial Regulatory Flexibility Analysis.--Subsection (b) 
of section 603 of title 5, United States Code, is amended to 
read as follows:
  ``(b) Each initial regulatory flexibility analysis required 
under this section shall contain a detailed statement 
describing--
          ``(1) the reasons why the action by the agency is 
        being considered;
          ``(2) the objectives of, and legal basis for, the 
        proposed rule;
          ``(3) the type of small entities to which the 
        proposed rule will apply;
          ``(4) the number of small entities to which the 
        proposed rule will apply or why such estimate is not 
        available;
          ``(5) the projected reporting, recordkeeping, and 
        other compliance requirements of the proposed rule, 
        including an estimate of the classes of small entities 
        which will be subject to the requirement, the costs, 
        and the type of professional skills necessary to comply 
        with the rule; and
          ``(6) all relevant Federal rules which may duplicate, 
        overlap, or conflict with the proposed rule, or the 
        reasons why such a description could not be 
        provided.''.
  (b) Final Regulatory Flexibility Analysis.--
          (1) Paragraph (4) of such section is amended by 
        striking ``an explanation'' and inserting ``a detailed 
        explanation''.
          (2) Paragraph (5) of such section is amended to read 
        as follows:
          ``(4) a description of the projected reporting, 
        recordkeeping, and other compliance requirements of the 
        rule, including an estimate of the classes of small 
        entities which will be subject to the requirement, the 
        costs, and the type of professional skills necessary to 
        comply with the rule; and''.
  (c) Certification of No Impact.--Subsection (b) of section 
605 of title 5, United States Code, is amended by inserting 
``detailed'' before ``statement'' both places such term 
appears.

SEC. 5. PERIODIC REVIEW OF RULES.

  Section 610 of title 5, United States Code, is amended to 
read as follows:

``Sec. 610. Periodic review of rules

  ``(a) Not later than 180 days after the enactment of the 
Small Business Regulatory Improvement Act of 2011, each agency 
shall publish in the Federal Register and place on its website 
a plan for the periodic review of rules issued by the agency 
which the head of the agency determines have a significant 
economic impact on a substantial number of small entities. Such 
determination shall be made without regard to whether the 
agency performed an analysis under section 604. The purpose of 
the review shall be to determine whether such rules should be 
continued without change, or should be amended or rescinded, 
consistent with the stated objectives of applicable statutes, 
to minimize significant economic impacts on a substantial 
number of small entities. Such plan may be amended by the 
agency at any time by publishing the revision in the Federal 
Register and subsequently placing the amended plan on the 
agency's website.
  ``(b) The plan shall provide for the review of all such 
agency rules existing on the date of the enactment of the Small 
Business Regulatory Improvement Act of 2011 within 10 years of 
the date of publication of the plan in the Federal Register and 
for review of rules adopted after the date of enactment of the 
Small Business Regulatory Improvement Act of 2011 within 10 
years after the publication of the final rule in the Federal 
Register. If the head of the agency determines that completion 
of the review of existing rules is not feasible by the 
established date, the head of the agency shall so certify in a 
statement published in the Federal Register and may extend the 
review for not longer than 2 years after publication of notice 
of extension in the Federal Register. Such certification and 
notice shall be sent to the Chief Counsel for Advocacy and the 
Congress.
  ``(c) Each agency shall annually submit a report regarding 
the results of its review pursuant to such plan to the Congress 
and, in the case of agencies other than independent regulatory 
agencies (as defined in section 3502(5) of title 44, United 
States Code) to the Administrator of the Office of Information 
and Regulatory Affairs of the Office of Management and Budget. 
Such report shall include the identification of any rule with 
respect to which the head of the agency made a determination 
described in paragraph (5) or (6) of subsection (d) and a 
detailed explanation of the reasons for such determination.
  ``(d) In reviewing rules under such plan, the agency shall 
consider the following factors:
          ``(1) The continued need for the rule.
          ``(2) The nature of complaints received by the agency 
        from small entities concerning the rule.
          ``(3) Comments by the Regulatory Enforcement 
        Ombudsman and the Chief Counsel for Advocacy.
          ``(4) The complexity of the rule.
          ``(5) The extent to which the rule overlaps, 
        duplicates, or conflicts with other Federal rules and, 
        unless the head of the agency determines it to be 
        infeasible, State and local rules.
          ``(6) The length of time since the rule has been 
        evaluated or the degree to which technology, economic 
        conditions, or other factors have changed in the area 
        affected by the rule.
  ``(e) The agency shall publish in the Federal Register and on 
its website a list of rules to be reviewed pursuant to such 
plan. Such publication shall include a brief description of the 
rule, the reason why the agency determined that it has a 
significant economic impact on a substantial number of small 
entities (without regard to whether it had prepared a final 
regulatory flexibility analysis for the rule), and request 
comments from the public, the Chief Counsel for Advocacy, and 
the Regulatory Enforcement Ombudsman concerning the enforcement 
of the rule.''.

SEC. 6. CHANGES TO THE REGULATORY FLEXIBILITY ACT TO COMPORT WITH 
                    EXECUTIVE ORDER 13272.

  (a) Initial Regulatory Flexibility Analysis.--Section 603 of 
title 5, United States Code, is amended by adding at the end 
the following:
  ``(e) An agency shall notify the Chief Counsel for Advocacy 
of the Small Business Administration of any draft rules that 
may have a significant economic impact on a substantial number 
of small entities either--
          ``(1) when the agency submits a draft rule to the 
        Office of Information and Regulatory Affairs at the 
        Office of Management and Budget, if submission is 
        required; or
          ``(2) if no submission to the Office of Information 
        and Regulatory Affairs is so required, at a reasonable 
        time prior to publication of the rule by the agency.''.
  (b) Inclusion in Final Regulatory Flexibility Analysis of 
Response to Comments on Certification of Proposed Rule.--
Paragraph (2) of section 604(a) of title 5, United States Code, 
is amended by inserting after ``initial regulatory flexibility 
analysis'' the following: ``(or certification of the proposed 
rule under section 605(b))''.

                         Amendment to H.R. 527


                  Offered by Ms. Velazquez of New York

  Add, at the end of the bill, the following:

SEC. 10. EFFECTIVE DATE.

  This Act and the amendments made by this Act shall take 
effect on October 1 of the first full fiscal year--
          (1) for which no funding is authorized by law for the 
        Office of Advocacy of the Small Business Administration 
        in an amount exceeding the level of funding for the 
        Office for fiscal year 2011; and
          (2) that follows any fiscal year for which the actual 
        annual Federal budget deficit did not exceed 
        $500,000,000,000.

                         Amendment to H.R. 585


                  Offered by Ms. Velazquez of New York


  Add, at the end of the bill, the following:

SEC. 3. EFFECTIVE DATE; STUDY AND CERTIFICATION REQUIRED REGARDING 
                    COST, RESOURCE DUPLICATION AND AGENCY WASTE.

  This Act and the amendments made by this Act shall not take 
effect until the date that the Chief Counsel for Advocacy of 
the Small Business Administration--
          (1) reports to the Committee on Small Business of the 
        House of Representatives and the Committee on Small 
        Business and Entrepreneurship of the Senate on the 
        feasibility, personnel resources required, and overall 
        cost to the Chief Counsel of carrying out the 
        responsibilities of the Chief Counsel under the 
        amendments made in section 2, including an analysis of 
        whether carrying out such responsibilities will result 
        in a duplication of functions in the Small Business 
        Administration, including those of the Office of Size 
        Standards; and
          (2) certifies to the Committee on Small Business of 
        the House of Representatives and the Committee on Small 
        Business and Entrepreneurship of the Senate that the 
        Chief Counsel may carry out the responsibilities of the 
        Chief Counsel under the amendments made in section 2 
        without incurring any additional costs.

                         Amendment to H.R. 527


                  Offered by Mr. Critz of Pennsylvania


  Page 18, insert after line 11 the following (and redesignate 
succeeding subsections accordingly):

  ``(f)(1) If Congress approves a trade agreement under section 
2191 of title 19, United States Code, then the Chief Counsel 
for Advocacy of the Small Business Administration shall--
          ``(A) identify small entities or representatives of 
        small entities or a combination of both for the purpose 
        of obtaining advice, input, and recommendations from 
        those persons about the potential economic impacts of 
        rules implementing or pertaining to such trade 
        agreement; and
          ``(B) convene a review panel consisting of an 
        employee from the Office of Advocacy of the Small 
        Business Administration, an employee from relevant 
        agencies or, if appropriate, an employee from the 
        Office of Information and Regulatory Affairs of the 
        Office of Management and Budget to review the advice, 
        input, and recommendations provided to the Chief 
        Counsel under subparagraph (A).
  ``(2) Not later than 60 days after the review panel described 
in paragraph (1) is convened, the Chief Counsel for Advocacy of 
the Small Business Administration shall, after consultation 
with the members of such panel, submit a report to Congress. 
Such report shall include an assessment of the economic impact 
of rules implementing or pertaining to the trade agreement on 
small entities and a discussion of any alternatives that will 
minimize adverse significant economic impacts or maximize 
beneficial significant economic impacts on small entities.''.

                         Amendment to H.R. 527


                  Offered by Mr. Critz of Pennsylvania


  Page 17, line 9, insert after ``small entities'' the 
following: ``, including an assessment of the proposed rule's 
impact on the cost that small entities pay for energy,''.

[GRAPHIC] [TIFF OMITTED] T7059A.001

[GRAPHIC] [TIFF OMITTED] T7059A.002

[GRAPHIC] [TIFF OMITTED] T7059A.003

                                H.R. 527

  Be it enacted by the Senate and House of Representatives of 
the United States of America in Congress assembled,

SECTION 1. SHORT TITLE; TABLE OF CONTENTS.

  (a) Short Title.--This Act may be cited as the ``Regulatory 
Flexibility Improvements Act of 2011''.
  (b) Table of Contents.--The table of contents of this Act is 
as follows:

Sec. 1. Short title; table of contents.
Sec. 2. Clarification and expansion of rules covered by the Regulatory 
          Flexibility Act.
Sec. 3. Requirements providing for more detailed analyses.
Sec. 4. Repeal of waiver and delay authority; additional powers of the 
          Chief Counsel for Advocacy.
Sec. 5. Procedures for gathering comments.
Sec. 6. Periodic review of rules.
Sec. 7. Judicial review of compliance with the requirements of the 
          Regulatory Flexibility Act available after publication of the 
          final rule.
Sec. 8. Jurisdiction of court of appeals over rules implementing the 
          Regulatory Flexibility Act.
Sec. 9. Clerical amendments.

SEC. 2. CLARIFICATION AND EXPANSION OF RULES COVERED BY THE REGULATORY 
                    FLEXIBILITY ACT.

  (a) In General.--Paragraph (2) of section 601 of title 5, 
United States Code, is amended to read as follows:
          ``(2) Rule.--The term `rule' has the meaning given 
        such term in section 551(4) of this title, except that 
        such term does not include a rule of particular (and 
        not general) applicability relating to rates, wages, 
        corporate or financial structures or reorganizations 
        thereof, prices, facilities, appliances, services, or 
        allowances therefor or to valuations, costs or 
        accounting, or practices relating to such rates, wages, 
        structures, prices, appliances, services, or 
        allowances.''.
  (b) Inclusion of Rules With Indirect Effects.--Section 601 of 
title 5, United States Code, is amended by adding at the end 
the following new paragraph:
          ``(9) Economic impact.--The term `economic impact' 
        means, with respect to a proposed or final rule--
                  ``(A) any direct economic effect on small 
                entities of such rule; and
                  ``(B) any indirect economic effect on small 
                entities which is reasonably foreseeable and 
                results from such rule (without regard to 
                whether small entities will be directly 
                regulated by the rule).''.
  (c) Inclusion of Rules With Beneficial Effects.--
          (1) Initial regulatory flexibility analysis.--
        Subsection (c) of section 603 of title 5, United States 
        Code, is amended by striking the first sentence and 
        inserting ``Each initial regulatory flexibility 
        analysis shall also contain a detailed description of 
        alternatives to the proposed rule which minimize any 
        adverse significant economic impact or maximize any 
        beneficial significant economic impact on small 
        entities.''.
          (2) Final regulatory flexibility analysis.--The first 
        paragraph (6) of section 604(a) of title 5, United 
        States Code, is amended by striking ``minimize the 
        significant economic impact'' and inserting ``minimize 
        the adverse significant economic impact or maximize the 
        beneficial significant economic impact''.
  (d) Inclusion of Rules Affecting Tribal Organizations.--
Paragraph (5) of section 601 of title 5, United States Code, is 
amended by inserting ``and tribal organizations (as defined in 
section 4(l) of the Indian Self-Determination and Education 
Assistance Act (25 U.S.C. 450b(l))),'' after ``special 
districts,''.
  (e) Inclusion of Land Management Plans and Formal 
Rulemaking.--
          (1) Initial regulatory flexibility analysis.--
        Subsection (a) of section 603 of title 5, United States 
        Code, is amended in the first sentence--
                  (A) by striking ``or'' after ``proposed 
                rule,''; and
                  (B) by inserting ``or publishes a revision or 
                amendment to a land management plan,'' after 
                ``United States,''.
          (2) Final regulatory flexibility analysis.--
        Subsection (a) of section 604 of title 5, United States 
        Code, is amended in the first sentence--
                  (A) by striking ``or'' after ``proposed 
                rulemaking,''; and
                  (B) by inserting ``, or adopts a revision or 
                amendment to a land management plan,'' after 
                ``section 603(a),''.
          (3) Land management plan defined.--Section 601 of 
        title 5, United States Code, is amended by adding at 
        the end the following new paragraph:
          ``(10) Land management plan.--
                  ``(A) In general.--The term `land management 
                plan' means--
                          ``(i) any plan developed by the 
                        Secretary of Agriculture under section 
                        6 of the Forest and Rangeland Renewable 
                        Resources Planning Act of 1974 (16 
                        U.S.C. 1604); and
                          ``(ii) any plan developed by the 
                        Secretary of Interior under section 202 
                        of the Federal Land Policy and 
                        Management Act of 1976 (43 U.S.C. 
                        1712).
                  ``(B) Revision.--The term `revision' means 
                any change to a land management plan which--
                          ``(i) in the case of a plan described 
                        in subparagraph (A)(i), is made under 
                        section 6(f)(5) of the Forest and 
                        Rangeland Renewable Resources Planning 
                        Act of 1974 (16 U.S.C. 1604(f)(5)); or
                          ``(ii) in the case of a plan 
                        described in subparagraph (A)(ii), is 
                        made under section 1610.5-6 of title 
                        43, Code of Federal Regulations (or any 
                        successor regulation).
                  ``(C) Amendment.--The term `amendment' means 
                any change to a land management plan which--
                          ``(i) in the case of a plan described 
                        in subparagraph (A)(i), is made under 
                        section 6(f)(4) of the Forest and 
                        Rangeland Renewable Resources Planning 
                        Act of 1974 (16 U.S.C. 1604(f)(4)) and 
                        with respect to which the Secretary of 
                        Agriculture prepares a statement 
                        described in section 102(2)(C) of the 
                        National Environmental Policy Act of 
                        1969 (42 U.S.C. 4332(2)(C)); or
                          ``(ii) in the case of a plan 
                        described in subparagraph (A)(ii), is 
                        made under section 1610.5-5 of title 
                        43, Code of Federal Regulations (or any 
                        successor regulation) and with respect 
                        to which the Secretary of the Interior 
                        prepares a statement described in 
                        section 102(2)(C) of the National 
                        Environmental Policy Act of 1969 (42 
                        U.S.C. 4332(2)(C)).''.
  (f) Inclusion of Certain Interpretive Rules Involving the 
Internal Revenue Laws.--
          (1) In general.--Subsection (a) of section 603 of 
        title 5, United States Code, is amended by striking the 
        period at the end and inserting ``or a recordkeeping 
        requirement, and without regard to whether such 
        requirement is imposed by statute or regulation.''.
          (2) Collection of information.--Paragraph (7) of 
        section 601 of title 5, United States Code, is amended 
        to read as follows:
          ``(7) Collection of information.--The term 
        `collection of information' has the meaning given such 
        term in section 3502(3) of title 44, United States 
        Code.''.
          (3) Recordkeeping requirement.--Paragraph (8) of 
        section 601 of title 5, United States Code, is amended 
        to read as follows:
          ``(8) Recordkeeping requirement.--The term 
        `recordkeeping requirement' has the meaning given such 
        term in section 3502(13) of title 44, United States 
        Code.''.
  (g) Definition of Small Organization.--Paragraph (4) of 
section 601 of title 5, United States Code, is amended to read 
as follows:
          ``(4) Small organization.--
                  ``(A) In general.--The term `small 
                organization' means any not-for-profit 
                enterprise which, as of the issuance of the 
                notice of proposed rulemaking--
                          ``(i) in the case of an enterprise 
                        which is described by a classification 
                        code of the North American Industrial 
                        Classification System, does not exceed 
                        the size standard established by the 
                        Administrator of the Small Business 
                        Administration pursuant to section 3 of 
                        the Small Business Act (15 U.S.C. 632) 
                        for small business concerns described 
                        by such classification code; and
                          ``(ii) in the case of any other 
                        enterprise, has a net worth that does 
                        not exceed $7,000,000 and has not more 
                        than 500 employees.
                  ``(B) Local labor organizations.--In the case 
                of any local labor organization, subparagraph 
                (A) shall be applied without regard to any 
                national or international organization of which 
                such local labor organization is a part.
                  ``(C) Agency definitions.--Subparagraphs (A) 
                and (B) shall not apply to the extent that an 
                agency, after consultation with the Office of 
                Advocacy of the Small Business Administration 
                and after opportunity for public comment, 
                establishes one or more definitions for such 
                term which are appropriate to the activities of 
                the agency and publishes such definitions in 
                the Federal Register.''.

SEC. 3. REQUIREMENTS PROVIDING FOR MORE DETAILED ANALYSES.

  (a) Initial Regulatory Flexibility Analysis.--
          (1) Subsection (b) of section 603 of title 5, United 
        States Code, is amended to read as follows:
  ``(b) Each initial regulatory flexibility analysis required 
under this section shall contain a detailed statement--
          ``(1) describing the reasons why action by the agency 
        is being considered;
          ``(2) describing the objectives of, and legal basis 
        for, the proposed rule;
          ``(3) estimating the number and type of small 
        entities to which the proposed rule will apply;
          ``(4) describing the projected reporting, 
        recordkeeping, and other compliance requirements of the 
        proposed rule, including an estimate of the classes of 
        small entities which will be subject to the requirement 
        and the type of professional skills necessary for 
        preparation of the report and record;
          ``(5) describing all relevant Federal rules which may 
        duplicate, overlap, or conflict with the proposed rule, 
        or the reasons why such a description could not be 
        provided;
          ``(6) estimating the additional cumulative economic 
        impact of the proposed rule on small entities beyond 
        that already imposed on the class of small entities by 
        the agency or why such an estimate is not available; 
        and
          ``(7) describing any disproportionate economic impact 
        on small entities or a specific class of small 
        entities.''.
  (b) Final Regulatory Flexibility Analysis.--
          (1) In general.--Section 604(a) of title 5, United 
        States Code, is amended--
                  (A) in paragraph (4), by striking ``an 
                explanation'' and inserting ``a detailed 
                explanation'';
                  (B) in each of paragraphs (4), (5), and the 
                first paragraph (6), by inserting ``detailed'' 
                before ``description''; and
                  (C) by adding at the end the following:
          ``(7) describing any disproportionate economic impact 
        on small entities or a specific class of small 
        entities.''.
          (2) Inclusion of response to comments on 
        certification of proposed rule.--Paragraph (2) of 
        section 604(a) of title 5, United States Code, is 
        amended by inserting ``(or certification of the 
        proposed rule under section 605(b))'' after ``initial 
        regulatory flexibility analysis''.
          (3) Publication of analysis on website.--Subsection 
        (b) of section 604 of title 5, United States Code, is 
        amended to read as follows:
  ``(b) The agency shall make copies of the final regulatory 
flexibility analysis available to the public, including 
placement of the entire analysis on the agency's website, and 
shall publish in the Federal Register the final regulatory 
flexibility analysis, or a summary thereof which includes the 
telephone number, mailing address, and link to the website 
where the complete analysis may be obtained.''.
  (c) Cross-References to Other Analyses.--Subsection (a) of 
section 605 of title 5, United States Code, is amended to read 
as follows:
  ``(a) A Federal agency shall be treated as satisfying any 
requirement regarding the content of an agenda or regulatory 
flexibility analysis under section 602, 603, or 604, if such 
agency provides in such agenda or analysis a cross-reference to 
the specific portion of another agenda or analysis which is 
required by any other law and which satisfies such 
requirement.''.
  (d) Certifications.--Subsection (b) of section 605 of title 
5, United States Code, is amended--
          (1) by inserting ``detailed'' before ``statement''; 
        and
          (2) by inserting ``and legal'' after ``factual''.
  (e) Quantification Requirements.--Section 607 of title 5, 
United States Code, is amended to read as follows:

``Sec. 607. Quantification requirements

  ``In complying with sections 603 and 604, an agency shall 
provide--
          ``(1) a quantifiable or numerical description of the 
        effects of the proposed or final rule and alternatives 
        to the proposed or final rule; or
          ``(2) a more general descriptive statement and a 
        detailed statement explaining why quantification is not 
        practicable or reliable.''.

SEC. 4. REPEAL OF WAIVER AND DELAY AUTHORITY; ADDITIONAL POWERS OF THE 
                    CHIEF COUNSEL FOR ADVOCACY.

  (a) In General.--Section 608 is amended to read as follows:

``Sec. 608. Additional powers of Chief Counsel for Advocacy

  ``(a)(1) Not later than 270 days after the date of the 
enactment of the Regulatory Flexibility Reform Act, the Chief 
Counsel for Advocacy of the Small Business Administration 
shall, after opportunity for notice and comment under section 
553, issue rules governing agency compliance with this chapter. 
The Chief Counsel may modify or amend such rules after notice 
and comment under section 553. This chapter (other than this 
subsection) shall not apply with respect to the issuance, 
modification, and amendment of rules under this paragraph.
  ``(2) An agency shall not issue rules which supplement the 
rules issued under subsection (a) unless such agency has first 
consulted with the Chief Counsel for Advocacy to ensure that 
such supplemental rules comply with this chapter and the rules 
issued under paragraph (1).
  ``(b) Notwithstanding any other law, the Chief Counsel for 
Advocacy of the Small Business Administration may intervene in 
any agency adjudication (unless such agency is authorized to 
impose a fine or penalty under such adjudication), and may 
inform the agency of the impact that any decision on the record 
may have on small entities. The Chief Counsel shall not 
initiate an appeal with respect to any adjudication in which 
the Chief Counsel intervenes under this subsection.
  ``(c) The Chief Counsel for Advocacy may file comments in 
response to any agency notice requesting comment, regardless of 
whether the agency is required to file a general notice of 
proposed rulemaking under section 553.''.
  (b) Conforming Amendments.--
          (1) Section 611(a)(1) of such title is amended by 
        striking ``608(b),''.
          (2) Section 611(a)(2) of such title is amended by 
        striking ``608(b),''.
          (3) Section 611(a)(3) of such title is amended--
                  (A) by striking subparagraph (B); and
                  (B) by striking ``(3)(A) A small entity'' and 
                inserting the following:
  ``(3) A small entity''.

SEC. 5. PROCEDURES FOR GATHERING COMMENTS.

  Section 609 of title 5, United States Code, is amended by 
striking subsection (b) and all that follows and inserting the 
following:
  ``(b)(1) Prior to publication of any proposed rule described 
in subsection (e), an agency making such rule shall notify the 
Chief Counsel for Advocacy of the Small Business Administration 
and provide the Chief Counsel with--
          ``(A) all materials prepared or utilized by the 
        agency in making the proposed rule, including the draft 
        of the proposed rule; and
          ``(B) information on the potential adverse and 
        beneficial economic impacts of the proposed rule on 
        small entities and the type of small entities that 
        might be affected.
  ``(2) An agency shall not be required under paragraph (1) to 
provide the exact language of any draft if the rule--
          ``(A) relates to the internal revenue laws of the 
        United States; or
          ``(B) is proposed by an independent regulatory agency 
        (as defined in section 3502(5) of title 44, United 
        States Code).
  ``(c) Not later than 15 days after the receipt of such 
materials and information under subsection (b), the Chief 
Counsel for Advocacy of the Small Business Administration 
shall--
          ``(1) identify small entities or representatives of 
        small entities or a combination of both for the purpose 
        of obtaining advice, input, and recommendations from 
        those persons about the potential economic impacts of 
        the proposed rule and the compliance of the agency with 
        section 603 of this title; and
          ``(2) convene a review panel consisting of an 
        employee from the Office of Advocacy of the Small 
        Business Administration, an employee from the agency 
        making the rule, and in the case of an agency other 
        than an independent regulatory agency (as defined in 
        section 3502(5) of title 44, United States Code), an 
        employee from the Office of Information and Regulatory 
        Affairs of the Office of Management and Budget to 
        review the materials and information provided to the 
        Chief Counsel under subsection (b).
  ``(d)(1) Not later than 60 days after the review panel 
described in subsection (c)(2) is convened, the Chief Counsel 
for Advocacy of the Small Business Administration shall, after 
consultation with the members of such panel, submit a report to 
the agency and, in the case of an agency other than an 
independent regulatory agency (as defined in section 3502(5) of 
title 44, United States Code), the Office of Information and 
Regulatory Affairs of the Office of Management and Budget.
  ``(2) Such report shall include an assessment of the economic 
impact of the proposed rule on small entities and a discussion 
of any alternatives that will minimize adverse significant 
economic impacts or maximize beneficial significant economic 
impacts on small entities.
  ``(3) Such report shall become part of the rulemaking record. 
In the publication of the proposed rule, the agency shall 
explain what actions, if any, the agency took in response to 
such report.
  ``(e) A proposed rule is described by this subsection if the 
Administrator of the Office of Information and Regulatory 
Affairs of the Office of Management and Budget, the head of the 
agency (or the delegatee of the head of the agency), or an 
independent regulatory agency determines that the proposed rule 
is likely to result in--
          ``(1) an annual effect on the economy of $100,000,000 
        or more;
          ``(2) a major increase in costs or prices for 
        consumers, individual industries, Federal, State, or 
        local governments, tribal organizations, or geographic 
        regions;
          ``(3) significant adverse effects on competition, 
        employment, investment, productivity, innovation, or on 
        the ability of United States-based enterprises to 
        compete with foreign-based enterprises in domestic and 
        export markets; or
          ``(4) a significant economic impact on a substantial 
        number of small entities.
  ``(f) Upon application by the agency, the Chief Counsel for 
Advocacy of the Small Business Administration may waive the 
requirements of subsections (b) through (e) if the Chief 
Counsel determines that compliance with the requirements of 
such subsections are impracticable, unnecessary, or contrary to 
the public interest.''.

SEC. 6. PERIODIC REVIEW OF RULES.

  Section 610 of title 5, United States Code, is amended to 
read as follows:

``Sec. 610. Periodic review of rules

  ``(a) Not later than 180 days after the enactment of the 
Regulatory Flexibility Improvements Act of 2011, each agency 
shall publish in the Federal Register and place on its website 
a plan for the periodic review of rules issued by the agency 
which the head of the agency determines have a significant 
economic impact on a substantial number of small entities. Such 
determination shall be made without regard to whether the 
agency performed an analysis under section 604. The purpose of 
the review shall be to determine whether such rules should be 
continued without change, or should be amended or rescinded, 
consistent with the stated objectives of applicable statutes, 
to minimize any adverse significant economic impacts or 
maximize any beneficial significant economic impacts on a 
substantial number of small entities. Such plan may be amended 
by the agency at any time by publishing the revision in the 
Federal Register and subsequently placing the amended plan on 
the agency's website.
  ``(b) The plan shall provide for the review of all such 
agency rules existing on the date of the enactment of the 
Regulatory Flexibility Improvements Act of 2011 within 10 years 
of the date of publication of the plan in the Federal Register 
and for review of rules adopted after the date of enactment of 
the Regulatory Flexibility Improvements Act of 2011 within 10 
years after the publication of the final rule in the Federal 
Register. If the head of the agency determines that completion 
of the review of existing rules is not feasible by the 
established date, the head of the agency shall so certify in a 
statement published in the Federal Register and may extend the 
review for not longer than 2 years after publication of notice 
of extension in the Federal Register. Such certification and 
notice shall be sent to the Chief Counsel for Advocacy of the 
Small Business Administration and the Congress.
  ``(c) Each agency shall annually submit a report regarding 
the results of its review pursuant to such plan to the 
Congress, the Chief Counsel for Advocacy of the Small Business 
Administration, and, in the case of agencies other than 
independent regulatory agencies (as defined in section 3502(5) 
of title 44, United States Code) to the Administrator of the 
Office of Information and Regulatory Affairs of the Office of 
Management and Budget. Such report shall include the 
identification of any rule with respect to which the head of 
the agency made a determination described in paragraph (5) or 
(6) of subsection (d) and a detailed explanation of the reasons 
for such determination.
  ``(d) In reviewing a rule pursuant to subsections (a) through 
(c), the agency shall amend or rescind the rule to minimize any 
adverse significant economic impact on a substantial number of 
small entities or disproportionate economic impact on a 
specific class of small entities, or maximize any beneficial 
significant economic impact of the rule on a substantial number 
of small entities to the greatest extent possible, consistent 
with the stated objectives of applicable statutes. In amending 
or rescinding the rule, the agency shall consider the following 
factors:
          ``(1) The continued need for the rule.
          ``(2) The nature of complaints received by the agency 
        from small entities concerning the rule.
          ``(3) Comments by the Regulatory Enforcement 
        Ombudsman and the Chief Counsel for Advocacy of the 
        Small Business Administration.
          ``(4) The complexity of the rule.
          ``(5) The extent to which the rule overlaps, 
        duplicates, or conflicts with other Federal rules and, 
        unless the head of the agency determines it to be 
        infeasible, State and local rules.
          ``(6) The contribution of the rule to the cumulative 
        economic impact of all Federal rules on the class of 
        small entities affected by the rule, unless the head of 
        the agency determines that such calculations cannot be 
        made and reports that determination in the annual 
        report required under subsection (c).
          ``(7) The length of time since the rule has been 
        evaluated or the degree to which technology, economic 
        conditions, or other factors have changed in the area 
        affected by the rule.
  ``(e) The agency shall publish in the Federal Register and on 
its website a list of rules to be reviewed pursuant to such 
plan. Such publication shall include a brief description of the 
rule, the reason why the agency determined that it has a 
significant economic impact on a substantial number of small 
entities (without regard to whether it had prepared a final 
regulatory flexibility analysis for the rule), and request 
comments from the public, the Chief Counsel for Advocacy of the 
Small Business Administration, and the Regulatory Enforcement 
Ombudsman concerning the enforcement of the rule.''.

SEC. 7. JUDICIAL REVIEW OF COMPLIANCE WITH THE REQUIREMENTS OF THE 
                    REGULATORY FLEXIBILITY ACT AVAILABLE AFTER 
                    PUBLICATION OF THE FINAL RULE.

  (a) In General.--Paragraph (1) of section 611(a) of title 5, 
United States Code, is amended by striking ``final agency 
action'' and inserting ``such rule''.
  (b) Jurisdiction.--Paragraph (2) of such section is amended 
by inserting ``(or which would have such jurisdiction if 
publication of the final rule constituted final agency 
action)'' after ``provision of law,''.
  (c) Time for Bringing Action.--Paragraph (3) of such section 
is amended--
          (1) by striking ``final agency action'' and inserting 
        ``publication of the final rule''; and
          (2) by inserting ``, in the case of a rule for which 
        the date of final agency action is the same date as the 
        publication of the final rule,'' after ``except that''.
  (d) Intervention by Chief Counsel for Advocacy.--Subsection 
(b) of section 612 of title 5, United States Code, is amended 
by inserting before the first period ``or agency compliance 
with section 601, 603, 604, 605(b), 609, or 610''.

SEC. 8. JURISDICTION OF COURT OF APPEALS OVER RULES IMPLEMENTING THE 
                    REGULATORY FLEXIBILITY ACT.

  (a) In General.--Section 2342 of title 28, United States 
Code, is amended--
          (1) in paragraph (6), by striking ``and'' at the end;
          (2) in paragraph (7), by striking the period at the 
        end and inserting ``; and''; and
          (3) by adding at the end the following new paragraph:
          ``(8) all final rules under section 608(a) of title 
        5, United States Code.''.
  (b) Conforming Amendments.--Paragraph (3) of section 2341 of 
title 28, United States Code, is amended--
          (1) in subparagraph (D), by striking ``and'' at the 
        end;
          (2) in subparagraph (E), by striking the period at 
        the end and inserting ``; and''; and
          (3) by adding at the end the following new 
        subparagraph:
                  ``(F) the Office of Advocacy of the Small 
                Business Administration, when the final rule is 
                under section 608(a) of title 5, United States 
                Code.''.
  (c) Authorization To Intervene and Comment on Agency 
Compliance With Administrative Procedure.--Subsection (b) of 
section 612 of title 5, United States Code, is amended by 
inserting ``chapter 5, and chapter 7,'' after ``this 
chapter,''.

SEC. 9. CLERICAL AMENDMENTS.

  (a) Section 601 of title 5, United States Code, is amended--
          (1) in paragraph (1)--
                  (A) by striking the semicolon at the end and 
                inserting a period; and
                  (B) by striking ``(1) the term'' and 
                inserting the following:
          ``(1) Agency.--The term'';
          (2) in paragraph (3)--
                  (A) by striking the semicolon at the end and 
                inserting a period, and
                  (B) by striking ``(3) the term'' and 
                inserting the following:
          ``(3) Small business.--The term'';
          (3) in paragraph (5)--
                  (A) by striking the semicolon at the end and 
                inserting a period, and
                  (B) by striking ``(5) the term'' and 
                inserting the following:
          ``(5) Small governmental jurisdiction.--The term''; 
        and
          (4) in paragraph (6)--
                  (A) by striking ``; and'' and inserting a 
                period, and
                  (B) by striking ``(6) the term'' and 
                inserting the following:
          ``(6) Small entity.--The term''.
  (b) The heading of section 605 of title 5, United States 
Code, is amended to read as follows:

``Sec. 605. Incorporations by reference and certifications''.

  (c) The table of sections for chapter 6 of title 5, United 
States Code, is amended--
          (1) by striking the item relating to section 605 and 
        inserting the following new item:

``605. Incorporations by reference and certifications'';

          (2) by striking the item relating to section 607 and 
        inserting the following new item:

``607. Quantification requirements'';

        and
          (3) by striking the item relating to section 608 and 
        inserting the following:

``608. Additional powers of Chief Counsel for Advocacy''.

  (d) Chapter 6 of title 5, United States Code, is amended as 
follows:
          (1) In section 603, by striking subsection (d).
          (2) In section 604(a) by striking the second 
        paragraph (6).

                                H.R. 585

  Be it enacted by the Senate and House of Representatives of 
the United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

  This Act may be cited as the ``Small Business Size Standard 
Flexibility Act of 2011''.

SEC. 2. ESTABLISHMENT AND APPROVAL OF SMALL BUSINESS CONCERN SIZE 
                    STANDARDS BY CHIEF COUNSEL FOR ADVOCACY.

  (a) In General.--Subparagraph (A) of section 3(a)(2) of the 
Small Business Act (15 U.S.C. 632(a)(2)(A)) is amended to read 
as follows:
                  ``(A) In general.--In addition to the 
                criteria specified in paragraph (1)--
                          ``(i) the Administrator may specify 
                        detailed definitions or standards by 
                        which a business concern may be 
                        determined to be a small business 
                        concern for purposes of this Act or the 
                        Small Business Investment Act of 1958; 
                        and
                          ``(ii) the Chief Counsel for Advocacy 
                        may specify such definitions or 
                        standards for purposes of any other 
                        Act.''.
  (b) Approval by Chief Counsel.--Clause (iii) of section 
3(a)(2)(C) of the Small Business Act (15 U.S.C. 
632(a)(2)(C)(iii)) is amended to read as follows:
                          ``(iii) except in the case of a size 
                        standard prescribed by the 
                        Administrator, is approved by the Chief 
                        Counsel for Advocacy.''.
  (c) Industry Variation.--Paragraph (3) of section 3(a) of the 
Small Business Act (15 U.S.C. 632(a)(3)) is amended--
          (1) by inserting ``or Chief Counsel for Advocacy, as 
        appropriate'' before ``shall ensure''; and
          (2) by inserting ``or Chief Counsel for Advocacy'' 
        before the period at the end.
  (d) Judicial Review of Size Standards Approved by Chief 
Counsel.--Section 3(a) of the Small Business Act (15 U.S.C. 
632(a)) is amended by adding at the end the following new 
paragraph:
  ``(6) Judicial Review of Standards Approved by Chief 
Counsel.--In the case of an action for judicial review of a 
rule which includes a definition or standard approved by the 
Chief Counsel for Advocacy under this subsection, the party 
seeking such review shall be entitled to join the Chief Counsel 
as a party in such action.''.

[GRAPHIC] [TIFF OMITTED] T7059A.004

[GRAPHIC] [TIFF OMITTED] T7059A.005

[GRAPHIC] [TIFF OMITTED] T7059A.006


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
